DAVID Y. IGE

CLARE E. CONNORS

GOVERNOR

ATTORNEY GENERAL

STATE OF HAWAII

DANA O. VIOLA
FIRST DEPUTY ATTORNEY GENERAL

DEPARTMENT OF THE ATTORNEY GENERAL
425 QUEEN STREET
HONOLULU, HAWAII 96813
(808) 586-1500

August 3, 2020
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
RE:

Bridge Aina Le‘a v. State of Hawai‘i Land Use Commission,
Supreme Court of the United States, No. 20-54

Dear Clerk,
Pursuant to Rule 37.2(a), Respondent hereby grants consent to the filing of amicus curiae
briefs by anyone either in support of or opposition to the Petition for a Writ of Certiorari.
Respectfully Submitted,

EWAN C. RAYNER
Deputy Solicitor General
Attorney for State of Hawai‘i Land Use
Commission

cc: Bruce D. Voss, Esq.
Michael M. Berger, Esq.

